Review of Barriers to Superfund Site Cleanups
                                         - CASE STUDIES -

                                                 #6400016



Inspector General Division Conducting the Review:

Headquarters Audit Division

Program Offices Involved:

Office of Solid Waste and Emergency Response

Office of Enforcement and Compliance Assurance

Photographs included in this report were provided by:

EPA Regional Offices

EPA OIG Auditors



                                         TABLE OF CONTENTS

   •   WHITMOYER LABORATORIES CASE STUDY
   •   SUMMARY OF BARRIERS
   •   BACKGROUND AND SITE HISTORY
   •   SITE DISCOVERY, PRELIMINARY ASSESSMENT, SITE INSPECTION AND NPL LISTING
   •   REMEDIAL INVESTIGATION/FEASIBILITY STUDY
   •   REMOVAL ACTIVITIES
   •   REMEDIAL DESIGN/REMEDIAL ACTION
   •   COST RECOVERY ACTIONS
   •   CONCLUSIONS
   •   WASATCH CHEMICAL CASE STUDY
   •   SUMMARY OF BARRIERS
   •   BACKGROUND AND SITE HISTORY
   •   SITE DISCOVERY, PRELIMINARY ASSESSMENTS, AND SITE INSPECTIONS
   •   REMOVAL ACTIONS
   •   NPL LISTING
   •   REMEDIAL INVESTIGATION/FEASIBILITY STUDY
   •   REMEDIAL DESIGN/REMEDIAL ACTION
   •   COST RECOVERY ACTIONS
   •   CONCLUSIONS
   •   SOUTHERN MARYLAND WOOD TREATING CASE STUDY
   •   SUMMARY OF BARRIERS
   •   BACKGROUND AND SITE HISTORY
   •   SITE DISCOVERY, PRELIMINARY ASSESSMENTS AND SITE INSPECTIONS
•   REMOVAL ACTIONS
•   NPL LISTING AND REMEDIAL INVESTIGATION/ FEASIBILITY STUDY
•   REMEDIAL DESIGN/REMEDIAL ACTION
•   COMMUNITY RELATIONS
•   CONCLUSIONS
•   APPENDICES
•   APPENDIX I
•   APPENDIX II
•   APPENDIX III
•   APPENDIX IV
